Semiannual Report
to t h e C o n g r e ss
Office of the Inspector General
 October 1, 2009 – March 31, 2010
T    his issue of our Semiannual Report to the Congress features highlights from the John Adams Building.
     Inspired by the Exposition des Arts Décoratifs held in Paris in 1925, the Library of Congress’s John Adams
Building opened to the public on January 3rd, 1939. The exterior of the building is faced with white Georgia
marble and sculptures by artist Lee Lawrie which depict figures associated with the history of the written
word.

The photograph featured on our cover, taken by Carol Highsmith, is one example of the many Art Deco
styled owls that one might encounter in the Adams Building. Known throughout history as a symbol of wis-
dom, the owl motif is fitting considering the remarkable business, science, and technology collections which
are housed there. In fact, the interior of the building contains 12 tiers of stacks, extending from the cellar to
the fourth floor with 13 acres of shelf space per tier. These stacks comprise 180 miles of shelving (compared
to 104 miles in the Jefferson Building) and can hold ten million volumes.

By providing access to collections like those found in the John Adams Building, the Library seeks to spark
imagination and creativity, and to further human understanding and wisdom. Many of the Library’s rich
resources can also be accessed through its Web site at www.loc.gov and via interactive exhibitions on a per-
sonalized Web site at myLOC.gov.




All Photographs in this Publication Are of the John Adams Building
Aside From Those of the Rare Book Collection

Cover: Decorative Transom, Photograph By Carol Highsmith
Above Upper: Two Vintage Photographs from the Library’s Prints and Photographs Division
Above Lower: Bull Carving on Building Exterior, Photograph by Carol Highsmith
	              Owl Figure on Exterior, Photograph by Tara Logan
 March 31, 2010


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended March 31,
2010.

In the last six months we prepared reports on performance-based budgeting, workforce
acquisitions, travel charge cards, records management, the August 2009 data center power
outage incident, and an in-depth follow-up on copyright claims processing. We also reported
on the Library and Madison Council’s fiscal year (FY) 2009 financial statements. In addition,
we conducted investigations on topics such as fraud in the surplus books program and copyright
applications, network security violations, compromised purchase cards, and misuse of Library
property and time.

We are pleased to report that Library management implemented 39 of our recommendations in
this reporting period. In the next six months, we will report on in-progress reviews of the Library’s
use of flexibilities and incentives in human resources, multi-function device contract, a contract
settlement, rare book inventories, management of our multi-sector workforce, the Open World
Leadership Center FY 2009 financial statements, and other topics.

During this semiannual period, we continued fulfilling Congress’s request to post publicly available
reports on our Web site. Many of our reports can now be found at www.loc.gov/about/oig/.




Karl W. Schornagel
Inspector General
          Table of Contents



           Introduction and Definitions.......................................................................................................                     1
           Librarian’s Management Agenda.................................................................................................                          3
           Audits, Surveys, and Reviews......................................................................................................                      6
              Performance-based Budgeting...........................................................................................................               6
                  Workforce Acquisitions.....................................................................................................................      8
                  Travel Credit Cards..........................................................................................................................    10
                  Records Management Program...........................................................................................................            12
                  Data Center Power Outage Incident ..............................................................................................                 14
                  Copyright Claims Processing Follow-up.........................................................................................                   15
                  Library of Congress Fiscal Year 2009 Financial Statements................................................................                        17
                  Madison Council Fiscal Year 2009 Financial Statements...........................................................................                 17
           Investigations.....................................................................................................................................     20
                  Significant Criminal and Administrative Investigations...........................................................................                21
                  Follow-up on Investigative Issues from Prior Semiannual Reports.........................................................                         24
           Other Activities.................................................................................................................................       25
                  Inspector General Requests Statutory Law Enforcement Authority.................................................................                  25
                  Peer Review of the OIG’s Investigations Division.............................................................................                    25
                  OIG Reports Now Available Online..............................................................................................................   26
                  Review of ISS Asset Management Tracking System Policy..............................................................................              26
           Review of Legislation and Regulations........................................................................................                           27
           Unimplemented Recommendations.................................................................................................                          29
           Implemented Regulations.................................................................................................................                36
           Instances Where Information or Assistance Requests Were Denied...............................                                                           42
           Status of Recommendations Without Management Decisions...........................................                                                       42
           Significant Revised Management Decisions............................................................................                                    42
           Significant Management Decisions With Which OIG Disagrees........................................                                                       42
           Follow-Up on Prior Period Recommendations........................................................................                                       42
           Funds Questioned or Put to Better Use .................................................................................                                 43
           Organizational Chart.................................................................................................................                   45
           Hotline Information....................................................................................................................                 46




Left: Marble and Metalwork Ornamentation,
Photograph by Carol Highsmith
We perform many types of services; among them:

Attestations,     which involve examining, reviewing, or applying
agreed-upon procedures on a subject matter, or an assertion about
a subject matter. Attestations can have a broad range of financial or
nonfinancial focuses, such as the Library’s compliance with specific
laws and regulations; assertions or assumptions made in a cost/benefit,
break even, or requirements analysis; validation of performance against
performance measures; or reasonableness of cost.

Financial Audits, which determine whether financial statements
present fairly the financial position, results of operations, and cash
flows in conformity with generally accepted accounting principles, and
whether an entity has adequate internal control systems and complies
with applicable laws and regulations.

Investigations, which are conducted based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of financial
assistance, and others responsible for handling federal resources.
Violations of Library regulations or fraud committed against the
Library can result in administrative sanctions and/or criminal or civil
prosecution.

Nonaudit Services, which are equivalent to consulting services in
the private sector and usually involve providing advice or assistance to
Library managers without necessarily drawing conclusions, or making
recommendations. Auditors are cautious when performing nonaudit
services because providing them may jeopardize the independence
needed to later audit that subject area.

Performance Audits,           which address the efficiency, effectiveness,
and economy of the Library’s programs, activities, and functions; provide
information to responsible parties to improve public accountability;
facilitate oversight and decision making; and initiate corrective action
as needed.
           Introduction and Definitions
          The mission of the Office of the Inspector General is to
          promote economy, efficiency, and effectiveness by detecting
          and preventing waste, fraud, and abuse.
          To accomplish our mission, we conduct audits and investigations.

          Our philosophy is to be proactive. We believe this approach results in a more efficient use of resources by
          detecting and preventing problems early. Accordingly, we are following several key projects throughout the
          Library and rendering assistance and making recommendations as needed.

          Our staff is educated and certified in various disciplines. We are, collectively, four certified public accountants
          (CPA), three attorneys, two certified internal auditors (CIA), one certified information systems auditor (CISA),
          three special agents, two investigators, one Master of Library Science, and other highly qualified staff.

          Our goals, objectives, strategies, and performance indicators can be found in our Strategic Plan, available on our
          Web site at www.loc.gov/about/oig.




Above: Ornamental Transom above Double Doors,
Photograph by Carol Highsmith
Left: Marbel and Metalwork ,
Photograph by Carol Highsmith

                                                                                 Semiannual Report to the Congress • 2
                                 The Librarian’s FY 2010 Management Agenda

                                 In July 2009, the Librarian issued his Management Agenda to the Execu-
                                 tive Committee. The Agenda provides a framework for implementing
                                 objectives and specific tasks to be accomplished during FY 2010 and
                                 beyond, and was written to align with the Library’s FY 2008-2013 Stra-
                                 tegic Plan. We commend the Librarian for incorporating in the Agenda a
                                 number of significant recommendations we have made in previous audit
                                 reports.

                                 In January 2009, we made several recommendations regarding informa-
                                 tion technology (IT) (report No. 2008-PA-105: Information Technology
                                 Strategic Planning: A Well-Developed Framework is Essential to Support
                                 the Library’s Current and Future IT Needs). The recommendations were
                                 aimed at helping the Library begin a high-level process to align its IT
                                 strategic plan with organizational strategic plans. In the same report, we
                                 also recommended that the Library establish clear linkages between its IT
                                 strategic plan and an IT investment planning process. We are pleased to
                                 see that task 2A-1 in the Agenda responds to these recommendations by
                                 directing an alignment of IT activities with the Library’s mission, strate-
                                 gic goals, and performance targets. A better set of linkages between orga-
                                 nizational plans and IT plans will result in a more targeted and effective
                                 delivery of IT resources.

                                 In the same report, we recommended that the Library realign its organi-
                                 zational structure to foster better strategic planning and IT governance.
                                 We also recommended that the Library adopt a formal IT investment
                                 process, similar to the best practices available in the executive branch. In
                                 task 2A-2, the Librarian requests the outline of an IT governance struc-
                                 ture and organization that allows for an independent internal IT invest-
                                 ment review board and effective enterprise architecture oversight.

                                 Finally, in the same report, we recommended the adoption of an enter-
                                 prise architecture program, to help the Library better plan, deploy, and
                                 monitor its IT resources. In task 2B, the Librarian directs the Library to
                                 begin the processes necessary to establish such a program.

                                 In other Office of the Inspector General (OIG) reports, we made recom-
                                 mendations about human capital and succession planning: in July 2008,
                                 we reviewed the Library’s diversity management program (report No.
                                 2008-SP-104: Review of the Library’s Diversity Management Program).




3 • Semiannual Report to the Congress
             In that report, we recommended that the Library identify critical senior
             level, supervisory, and management positions, as well as the skills and abili-
             ties required for a successful future workforce. A skills gap analysis is criti-
             cal to identifying the human resources the Library is likely to need in the
             future. In task 2C-2, the Librarian lays the groundwork for a succession
             planning program and ongoing staff training.

             Finally, we are pleased that the Librarian is strongly addressing recom-
             mendations from report No. 2004-PA-104, Opportunities Exist to Improve
             Space Management. In that report, we recommended the establishment of
             standards conducive to productivity for work environments. In task 2D-2,
             the Librarian directs management to describe current and anticipated work
             environment and productivity improvement requirements in the Library’s
             Capitol Hill buildings.




Above: Detail of Metalwork and Marble
Photograph by Carol Highsmith
                                                                                     Semiannual Report to the Congress • 4
Credits and Observations
                  Audits, Surveys, and Reviews

                 Library-Wide
                 Managing in the Spirit of GPRA: Developing
                 Credible Performance Data is the Next Step

                 Audit Report No. 2009-PA-104
                 March 2010

                 Congress enacted the Government Performance and Results Act (GPRA)
                 in 1993 to improve the management of the Federal Government. The
                 basic premise of GPRA is to tie funding to program performance.
                 Initially, the Act only applied to executive branch agencies, but Congress
                 subsequently directed legislative branch agencies to comply with the
                 spirit of the act and embrace its performance management principles.

                 Our report provided the results of the OIG audit of the Library‘s
                 implementation of GPRA-styled performance management principles.
                 It represents the second of a series of audits that OIG is performing on this
                 topic. Our first audit focused on the Library’s initial implementation of
                 performance management activities which took place between October
                 2004 and June 2006.

                 We found that the Library has made good progress in addressing the
                 spirit and intent of GPRA. However, it must develop and implement
                 additional processes to fully meet Congress’s expectations and comply
                 with its own policy on planning, budgeting, and program performance
                 assessment. Using sound budgeting operations as a cornerstone, the
                 Library is developing strategic planning and performance management
                 processes which effectively provide a GPRA-styled management
                 approach.

                  The following is a summary of our findings and recommendations.

                 The Library Needs to Improve the Quality of Performance Target
                 Data—We reviewed FY 2009 annual program performance plans and
                 assessments for a limited sample of Library service units. Our review
                 revealed that the quality of performance data that those service units
                 collected and used to support their program performance strategies
                 varied significantly and data supporting performance targets did
                 not, in some cases, exist. Inadequate and unreliable data will inhibit
                 program performance decision-making and related fiscal decisions.
                 We recommended that the Library establish a system that will assure
                 program performance assessment data is both valid and independently
                 verified.
Left: Egyptian God Thoth, Inventor of Language and Lord of Books, Part of a Pictoral
History of the Written Word by Artist Lee Lawrie. West Entrance Bronze Doors,
Photograph by Tara Logan

                                                                                   Semiannual Report to the Congress • 6
                                The Library Needs to Promote Linkages Between Performance
                                Assessments and Budgets—Like many federal agencies, the Library has
                                found it difficult to closely link its program performance assessments
                                with its budgeting activities. With the exception of the Management
                                Decision Package process, in which program performance
                                assessments have had a recognizable effect, we did not see
                                significant evidence of linkage in the formulation or
                                execution processes.

                                Without making connections between its
                                program performance assessments and
                                budgeting data, Library management
                                is deriving marginal benefit from its
                                program performance assessment
                                effort. We recommended that
                                the Library increase its efforts
                                to identify and document
                                connections between its program
                                performance assessment activities
                                and budgeting processes.

                                The Library Should Develop a
                                Plan for Periodically Evaluating
                                Its Activities—The Library’s
                                GPRA management process has
                                not matured to the stage where
                                GPRA-envisioned evaluations
                                could occur. Recognizing that
                                program evaluations are a tangible
                                benefit of performance activities
                                and are mandated both in GPRA and
                                Library policy, we believe the Library
                                should begin planning and designing a
                                format for an evaluation process. Without
                                adequate planning and development, a meaningful
                                and efficient program evaluation process cannot occur.
                                We recommended that the Chief Financial Officer establish
                                a working group to begin developing a GPRA-styled program
                                evaluation process.

                                Library management substantially agreed with our findings and
                                recommendations.




7 • Semiannual Report to the Congress
                      Human Resources Services Office
                      of Workforce Acquisitions

                      HRS Has Made Strides in Improving Recruiting and
                           Hiring, but Opportunities for Improvement Still Exist

                                            Audit Report No. 2009-PA-101
                                               November 2009

                                                          Human Resources Services (HRS) works
                                                            with, and p r ov i d e s m a n a g e m e n t
                                                              strategies for, the Library’s service
                                                                 and infrastructure units to plan
                                                                   for, obtain, and manage the
                                                                     human capital that the Library
                                                                      needs to fulfill its mission.
                                                                       The organization includes
                                                                        five    offices:     Strategic
                                                                         Planning and Automation,
                                                                         Workforce Acquisitions,
                                                                          Workforce Management,
                                                                          Workforce Performance
                                                                          and Development, and the
                                                                          Worklife Services Center.

                                                                   This report provided the
                                                                  results of our audit of the
                                                                 recruiting and hiring activities
                                                                performed by the Office of
                                                               Workforce Acquisitions (WFA).
                                                             The principal objectives of this
                                                           audit were to determine whether
                                                         1) processes applicable to recruiting
                                                      and hiring Library staff were efficient
                                                   and effective and 2) internal controls for
                                               recruiting and hiring activities adequately
                                           assured timely, accurate, and high-quality services.
                                      Overall, we concluded that the WFA specialists
                              provided timely and courteous service and some specialists
                      performed their duties extremely well. However, the hiring process
                      is not as efficient and effective as possible because WFA has not fully
                      implemented internal controls to adequately assure timely, accurate,




Above: Seal on the Reference Desk in the Science Reading Room,
Photograph by Carol Highsmith
                                                                                               Semiannual Report to the Congress • 8
                                 and high-quality services. Additionally, WFA has neither determined
                                 whether the Library’s recruitment efforts are efficient and effective, nor
                                 designed the Library’s career Web page to attract job seekers.

                                 HRS should adopt a stronger oversight role for those WFA activities
                                 to ensure that the hiring process meets the needs of 1) the Library’s
                                 various missions; 2) managers, who are responsible for filling positions
                                 with talented staff; and 3) job applicants, who deserve a timely, efficient,
                                 transparent, and merit-based hiring process. The following paragraphs
                                 provide summaries of significant issues we identified through our audit
                                 and key recommendations to improve the WFA’s recruiting and hiring
                                 activities.

                                 Steps WFA Should Take to Further Improve the Hiring Process—The
                                 hiring process effectively provides qualified candidates for Library
                                 employment and HRS has had success in reducing the time it takes the
                                 Library to hire a new employee. Still, the length of the Library’s hiring
                                 process is nearly 30 days longer than the goal applicable to other federal
                                 agencies. The additional time it takes to hire increases the likelihood
                                 that the best-qualified candidates will no longer be available, especially
                                 in the competitive IT field.

                                 We believe the WFA can effectively reduce the time it takes the
                                 Library to hire a new employee by implementing stronger controls and
                                 oversight. We recommended that WFA 1) require its staffing specialists
                                 to consistently enter complete hiring data into the employee data system
                                 EmpowHR and periodically assess the extent to which goals are met for
                                 each hiring step and make needed adjustments; 2) reevaluate the process
                                 needed for each hiring step, with specific emphasis on eliminating non-
                                 value added steps; 3) ensure that staffing specialists are properly trained
                                 and knowledgeable about recruitment issues and the hiring process
                                 including hiring flexibilities; and 4) develop a “Satisfaction Survey”
                                 to determine managers’ satisfaction levels with the hiring process and
                                 identify strategies for making process improvements.

                                 WFA Staff Performance is Not Adequately Measured—Performance
                                 appraisals of WFA staff are based neither on performance metrics
                                 nor accomplishments, because staff are not consistently entering
                                 complete data pertaining to their work into the employee data system,
                                 EmpowHR. As a result, the evaluations of staff performance are highly
                                 subjective. We recommended that the WFA Director require staff to
                                 consistently enter complete hiring data in EmpowHR and prepare
                                 performance appraisals which are based on actual metrics and staff
                                 accomplishments.


9 • Semiannual Report to the Congress
Recruitment Efforts Need Strengthening—WFA had neither
determined whether the Library’s recruitment efforts were efficient
and effective, nor designed the Library’s career Web page to attract job
seekers. We recommended that WFA coordinate with the Library’s
Office of Opportunity, Inclusiveness and Compliance; begin tracking
and analyzing recruiting and hiring data; and that HRS redesign the
Library’s career Web page.

HRS generally concurred with our findings and recommendations.
However, HRS management disagreed with our conclusion that the
hiring process included non-value added steps, and asserts that hiring
delays are caused by the panel process rather than its staff.


Office of the Chief Financial Officer
Travel Credit Card Program: Controls Generally
Effective, but Some Improvements Are Needed

Audit Report No. 2009-PA-106
February 2010

The Library of Congress makes travel credit cards available to staff who
are expected to travel on official business at least once a year. Such
cards provide a convenient means for the Library to pay for travel ex-
penses and effectively manage its travel costs. The Library also benefits
from rebates that the card provider offers.

This report provided the results of our audit of the Library’s travel cred-
it card program. The program is managed by the Library’s Office of the
Chief Financial Officer (OCFO). The principal purpose of the audit
was to determine whether the Library operates an effective program to
control the use of the travel credit cards by Library staff members.

We concluded that OCFO effectively monitors employees’ card use,
detects instances when cards are misused, and reports instances of im-
proper use to appropriate parties, including the OIG. We also con-
cluded that the vast majority of Library employees have used their
travel cards appropriately and paid their bills on time.

However, we further concluded that OCFO has neither performed
timely audits to identify improper transactions nor conducted semi-
annual reviews to identify inactive cards that should be deactivated.
The following paragraphs provide summaries of significant issues we
identified through our audit and key recommendations to improve the
Library’s travel card program.

                                                               Right: Decorative Metalwork,
                                                              Photograph by Carol Highsmith
             OCFO Travel Credit Card Policies and Procedures Generally Com-
             parable to Best Practices—In general, the Library’s travel credit card
             program controls favorably compare to best practices suggested by the
             Federal Government’s Office of Management and Budget. We recom-
             mended that OCFO include more details in its internal written proce-
             dures. Doing so would better ensure that staff are fully aware of and
             consistently apply the control procedures, and have a written docu-
             ment to reference.

             When Performed, OCFO Reviews Effectively Detect Card Misuse—
             Reviews performed by OCFO’s Travel Card Coordinator were effective
             in detecting improper travel credit card use and, when card misuse was
             identified, the coordinator reported it to appropriate parties, including
             the OIG. However, OCFO’s card transaction reviews were not occur-
             ring on a consistent basis due to problems with the transition to a new
             card contractor and unexpected Travel Office staff absences. If travel
             card transactions are not reviewed consistently and thoroughly, the
             likelihood increases that improper and/or fraudulent transactions or
             delinquent accounts will not be detected. This may affect the Library’s
             relationship with the vendor and decrease its rebates. We recommend-
             ed that OCFO ensure that the Travel Office thoroughly reviews travel
             credit card transactions every month.

             The Library’s Delinquent Accounts are Minimal—Only 2 of 805 active
             cardholder accounts were more than 60 days past due as of August 31,
             2009, amounting to a total of $1,503.85. No account was more than
             90 days old. This excellent record is attributable to the level of over-
             sight that OCFO provides to ensure that cardholders pay outstanding
             balances on their individually billed accounts on time.

             OCFO Needs to be More Proactive in Minimizing the Number of Ac-
             tive Cards—OCFO was not performing the travel card account activity
             reviews that it needed in order to identify inactive accounts for deac-
             tivation and to prevent improper card transactions in the future. Ac-
             cording to OCFO, it did not consistently perform this control review
             partly because it views it as a low priority due to the Library’s minimal
             levels of card abuse and delinquent accounts. We recommended that
             OCFO (1) perform periodic reviews to identify inactive cards and co-
             ordinate with the service unit to determine the appropriate action to




Left: Item From Rare Book Collection
take and (2) periodically remind supervisors and cardholders of their
responsibilities such as notifying OCFO when an employee’s job duties
change and no longer include traveling.

OCFO concurred with our findings and recommendations.


Integrated Support Services
The Library’s Records Management
Program needs to be Overhauled

Audit Report No. 2009-PA-104
March 2010

Every federal agency has a responsibility to create and maintain records
regarding its existence and operations. Doing so enables agencies to
protect the legal and financial rights of the government, taxpayers, and
other stakeholders; ensure continuity and consistency in the agency’s
administration; assist agency officials and their successors in making
informed decisions; and provide information required by Congress and
agencies which perform oversight functions.

Federal agencies are required to manage their records according to the
Federal Records Act and corresponding regulations. The Act requires
each agency to establish and maintain an active, continuing program
for economically and efficiently managing the agency’s records. Among
other things, the program must provide effective controls over the
creation, maintenance, and use of the records involved in conducting
business.

This report provided the results of our audit of the Library’s program
for managing official records. The Library’s Integrated Support Services
(ISS) organization administers the program. Our principal objective
was to determine whether ISS was providing direction, oversight, and
support to Library organizations and employees to help them comply
with the Federal Records Act and corresponding regulations. Our
scope included records in both hard-copy and electronic formats.




                                                                Semiannual Report to the Congress • 12
We determined that the Library’s records management program is not
in compliance with the Federal Records Act. As a result, the Library
has no assurance that service and support units are appropriately
managing the records in their custody and that important records are
not lost.

The following is a summary of our findings and recommendations.

The Library’s Records Management Program is Deficient—The
Library lacks records management directives that establish record-
keeping requirements, including records created or received using
email and distinguishing records from non-records. As a result, there
is a lack of consistency in record-keeping practices. In addition, ISS’s
Records Management Section does not play an active role in ensuring
that service and support units are aware of and complying with the
Library’s record-keeping policies. The Records Management Section
neither performs inspections nor surveys service units’ record-keeping
practices to determine if the Library complies with its own record-
keeping policies.

Lastly, the Library lacks an employee records management training
program designed to inform Library employees of required record-
keeping policies, responsibilities, and techniques.

We recommended that ISS promptly 1) develop and implement records
management policies and procedures which will provide an organized
means for the Library to conform to federal records management
requirements; 2) initiate active oversight of the Library’s record-
keeping practices; and 3) develop and implement, in coordination
with HRS, a training program on federal records management.

The Library Should Assess the Need for an Electronic Record-Keeping
System—As the volume of electronic records increases, the Library
should weigh the costs and benefits of implementing an electronic
record-keeping system. Therefore, we recommended that the Library
conduct a cost/benefit analysis of an electronic record-keeping
system.

ISS concurred with our recommendations.
                  Library-Wide
                  Information Technology Services,
                  Facility Services, and
                  Office of Security and Emergency Preparedness
                  Review of August 2009 Data Center Power Outage Incident

                  Review Report No. 2009-SP-102
                  December 2009

                  We conducted a review of the data center power outage incident that
                  occurred on August 17, 2009. On that day, the Library’s main data
                  center lost power when the Architect of the Capitol (AOC) attempted
                  to switch from primary to backup power in an effort to conserve energy
                  during peak hours. The backup power equipment maintained by the
                  AOC malfunctioned, which resulted in an immediate power loss and
                  sudden shutdown of the Library’s main data center.

                  Although the power outage lasted only 45 minutes, we found that it
                  had a substantial and prolonged impact on the Library’s operations.
                  Specifically,

                      •	     internal and external users, including congressional staff and 	
                  	          members of the public, were unable to access the Library’s 	
                  	          systems and Web sites for at least 12 hours;

                      •	     unanticipated IT hardware and software failures caused 		
                  	          critical systems to be unavailable for at least16 hours, and in 	
                  	          one case, nearly three and a half days; and

                      •	     email and cell phone services were temporarily unavailable,
                  	          making it difficult for key personnel to effectively communicate 	
                  	          during the power outage.


                  We made several recommendations to help mitigate the impact of any
                  future disruptions to the Library’s IT operations. The Office of Security
                  and Emergency Preparedness and Facility Services agreed with our
                  recommendations.




Right: Book Plate From Rare Book Collection
Opposite: Decorative Metalwork Owl Figure,
Photograph by Carol Highsmith
                                                                                      Semiannual Report to the Congress • 14
                ITS has developed an improvement plan to address many of the issues
                that we identified during this review. However, it disagreed with some of
                our statements and recommendations, despite the fact that they mirrored
                those identified in both its own improvement plan and in a briefing that
                it provided to the Executive Committee regarding the power outage and
                the limitations of the Alternate Computing Facility (which we reported
                in 2009-IT-101, Improvements are Needed to Bolster the Readiness of the
                Alternate Computing Facility, released in September 2009).

                Copyright Office
                Copyright Claims Processing Follow-Up

                Report No. 2010-PA-104
                March 2010

                In March 2010, we completed a second follow-up review on our
                September 2008, Review of the Copyright Claims Backlog Issue (report
                No. 2001-IT-304). This follow-up focused on the Copyright Office’s
                efforts to reduce its backlog of claims during the period of October
                2009 to January 2010.

                In July 2008, Copyright fully implemented its new online copyright
                registration system, eCO. The system was a result of an initiative that
                Copyright embarked on in 2000 to reengineer its public services, and
                was developed to capture claim applications, prospective copyright
                material, and application fees in electronic form. In theory, using eCO
                would reduce processing times for copyright claims and greatly improve
                Copyright’s efficiency and service to the public. However, Copyright
                encountered significant problems with the system’s implementation
                and, by September 2008, approximately 397,000 unprocessed claims
                had accumulated in a backlog. The size of the backlog was largely the
                result of long claims processing times. Key factors responsible for the
                long processing times included unreliable technology–optical character
                recognition (OCR)–used to “read” paper applications and the slow
                operating response time of eCO.

                We initially reported on the claims backlog issue in September
                2008. That report included three recommendations to 1) increase
                incentives offered to the public to reduce the volume of paper claims;
                2) promptly fill the office’s vacant registration specialist positions; and
                3) seek the staffing resources the office needs over the next few years to
                simultaneously process incoming claims and eliminate the backlog of
                unprocessed claims.
Above and opposite: Opposite: Ts’ang Chieh, the Chinese patron of writing
Holding a Scroll. Part of a Narrative History of the Written Word by
Artist Lee Lawrie. West Entrance Bronze Doors,
Photograph by Tara Logan
In our first follow-up, issued in September 2009, we reported that
Copyright had filled the office’s vacant registration specialist positions
and introduced a new fee schedule that provided a financial incentive
for electronic submissions of claims. We also reported actions that
Copyright had taken to remedy issues traceable to the use of OCR and
eCO’s slow operating response time, noting significant improvements
in registration specialists’ productivity levels which resulted from the
Copyright’s actions. However, despite these positive developments, the
backlog of claims had grown to approximately 533,000 as of the end
of July 2009.

In this, our second follow-up, we were pleased to report that since
September 2009, the number of claims in the backlog had consistently
declined, the productivity of registration specialists had significantly
increased, and the percentage of claims submitted electronically had
increased. Additionally, in January 2010, 51 staff members from
throughout the Library were detailed to Copyright for 60 days to help
the office reduce its backlog.

Given the further increase in productivity by registration specialists,
we reiterated our September 2009 recommendation that Copyright
reevaluate the registration specialist’s performance standard to ensure
that it was based on current operating conditions. We also reiterated
our September 2008 recommendation that Copyright seek the staffing
resources the office needs over the next few years to simultaneously
process incoming claims and eliminate the backlog of unprocessed
claims.

We continue to be impressed by the commitment of Copyright staff
members to their responsibilities. We also commend the Library’s
senior officials for helping Copyright address the backlog. We will
continue to monitor the claims backlog and report periodically on its
status.




                                Semiannual Report to the Congress • 16
                  Library of Congress
                  Fiscal Year 2009 Financial Statements
                  Audit Report No. 2009-FN-101
                  March 2010

                  Under contract with our office, Kearney & Company, an independent
                  public accounting firm, audited the Library’s Consolidated Balance
                  Sheets as of September 30, 2009 and 2008; the related Consolidated
                  Statements of Net Costs, and Changes in Net Position; and the Combined
                  Statements of Budgetary Resources for the fiscal years then ended. In the
                  auditor’s opinion, the financial statements, including the accompanying
                  notes, presented fairly, in all material respects, the financial position of
                  the Library and its net costs, changes in net position, and budgetary
                  resources for the years then ended, in conformity with accounting
                  principles generally accepted in the United States of America.

                  In planning and performing the audit, the auditors considered and
                  tested for compliance of internal controls over financial reporting and
                  compliance with laws and regulations where noncompliance would have
                  a direct and material effect on the financial statements. The auditors
                  noted no matters involving internal control and its operations that they
                  considered material weaknesses or significant deficiencies. They also
                  found no instances of noncompliance with laws and regulations or other
                  matters requiring reporting under Generally Accepted Government
                  Auditing Standards (GAGAS).

                  James Madison Council Fund
                  Fiscal Year 2009 Financial Statements
                  Audit Report No. 2009-FN-101
                  March 2010

                  The James Madison Council is an advisory body of public-spirited
                  individuals who contribute ideas, expertise, and financial support to
                  promote the Library’s collections and programs. The James Madison
                  Council Fund (Fund) was established in 1989 to encourage contributions
                  not only for current programs, but permanent endowments that will
                  impact the collections and programs in the future.




17 • Semiannual Report to the Congress
Under contract with our office, Kearney & Company audited the Fund’s
FY 2009 financial statements and issued its Independent Auditor’s
Report. The audit included the Fund’s statement of financial position
as of September 30, 2009, and the related statements of activities
and cash flows. The auditors concluded that the financial statements
were presented fairly, in all material respects, and in conformity with
generally accepted accounting principles. The auditors found no
material weaknesses or significant deficiencies in internal control over
financial reporting, nor any instances of noncompliance with laws and
regulations that are required to be reported under GAGAS.
For both the Library of Congress and Fund financial statements audits,
we performed the following steps to ensure the quality of Kearney &
Company’s work:

    •	   reviewed the auditor’s approach and planning of the audits,
	
    •	   reviewed significant workpapers,
	
    •	   evaluated the qualifications and independence of the 		
	        auditors,
	
    •	   monitored the progress of the audits at key points,
	
    •	   coordinated meetings with Library management to 		
	        discuss progress, findings, and recommendations,
	
    •	   performed other procedures we deemed necessary, and
	
    •	   reviewed and accepted Kearney & Company’s report.




                                                                           Above: Book Plate From Rare Book Collection

                                                                Semiannual Report to the Congress •18
                 Investigations

                During the reporting period we opened 64 investigations and closed 40. We forwarded 11 cases to Library
                management for administrative action and two cases were accepted by the Department of Justice for criminal
                prosecution. Case and Hotline activity are detailed below:

                 Table 1: 	        Investigation Case Activity
                                                     Criminal/Civil          Administrative                Total
                 From Prior Reporting Period               19                      35                       54
                 Opened                                    20                      44                       64
                 Closed                                    8                       32                       40

                 End of Period                             31                      47                       78


                 Table 2: 	        Hotline Activity
                                                                                         Count
                 Allegations received                                                      20
                 Referred to management for action                                          0
                 Opened as investigations                                                   9
                 Closed with no action                                                     11




Left: Ornamental Elevator Doors,
Photograph by Carol Highsmith
                                                                                  Semiannual Report to the Congress • 20
                    Significant Criminal and
                    Administrative Investigations

                    Surplus Books Program Fraud

                    An employee in the Library’s Surplus Books Program alerted the OIG to
                    an individual who had submitted a questionable program application.
                    Our investigation revealed that the individual had fraudulently represent-
                    ed his organization as a non-profit organization, which allowed him to
                    obtain more than 300 books from the program. Although sales of books
                    obtained through the program are prohibited, the subject attempted to
                    sell some of the books online, and to recruit a Library
                    contractor working in the Surplus Books Program to
                    facilitate future illegal acquisitions.

                    The individual was prosecuted for misdemeanor theft
                    of government property and was sentenced to 36
                    months probation, as well as treatment for substance
                    abuse and a mental condition. The investigators re-
                    covered all the books obtained.

                    Copyright Application Fraud

                    We received information from the Copyright Office
                    that a third-party copyright registration business had
                    submitted numerous registration applications on be-
                    half of clients without sufficient funds in its copyright
                    deposit account. For these applications, the registra-
                    tion business had charged its clients sums totaling ap-
                    proximately $78,000.

                    Our investigation revealed that two copyright registra-
                    tion companies, both owned by the same individual,
                    had submitted approximately 750 paper registration
                    applications without adequate funds in its deposit ac-
                    count. As a matter of practice, for businesses which maintain a deposit
                    account with the Copyright Office, the Office processes paper applica-
                    tions before withdrawing payment for the registration fee, and accord-
                    ingly, processing costs of $15,000 were incurred before payment was
                    technically “received.” Additionally, applications without accompanying
                    fees are not registered, so hundreds of registrations languished for more
                    than a year.




21 • Semiannual Report to the Congress
                     The OIG interviewed the owner of the companies, who subsequently
                     paid the amount owed to the Copyright Office for processing fees. The
                     Department of Justice declined prosecution.

                     Network Security Violations

                     A Library computer security liaison reported to the OIG a suspected
                     compromise of an employee’s login information. Our investigation de-
                     termined that the Library employee had given her login information to a
                     contractor who used it for several months to access the Library’s network
                     and download pornography. We also determined that the Library em-
                                                       ployee had more than 200 pornograph-
                                                        ic images stored on her computer.

                                                      The matter was referred for adminis-
                                                      trative action to Library management,
                                                      who proposed terminating the em-
                                                      ployee’s employment. The contractor
                                                      receiving the login information was
                                                      the victim of a homicide before action
                                                      could be taken against him.

                                                      Pornography

                                                      The Director, Integrated Support Ser-
                                                      vices, reported that an ISS employee
                                                      allegedly used his computer to send
                                                      pornographic material. While review-
                                                      ing the employee’s email activity, we
                                                      obtained evidence affirming the al-
                                                      legation and found four additional
                                                      employees that had used government
                                                      computers to send or receive pornogra-
                                                      phy. Administrative action on all five
                                                      employees is pending.

                     We investigated another employee for downloading pornography from a
                     Library computer. The employee admitted to viewing pornography, but
                     retired before administrative action could be taken.




Above: Detail of Metalwork Ornamentation
Photograph by Carol Highsmith
                                                                                     Semiannual Report to the Congress • 22
       Check Fraud

       The Library’s Disbursing Office reported that two counterfeit checks for
       $2,500 each purporting to have been issued by the Library were received
       by individuals in Kansas and Texas. The checks were not printed on the
       United States Treasury paper stock used by the Library, and neither check
       was cashed. The investigators determined that both check recipients were
       victims of an employment scam traced to the Craigslist Web site.

       Purchase Card Compromise

       In this reporting period, numerous Library purchase cards were compro-
       mised and used to attempt unauthorized Internet purchases. Although
       some small charges were approved, the majority were denied. There was
       no loss of Library funds. We are monitoring the situation and working
       with JP Morgan Chase & Co., the Library’s purchase card vendor, to
       determine a common point of compromise.

       Misuse of Library Property and Time
       		
       A Congressional Research Service employee complained to the OIG that
       reports he had authored were not given proper attribution when a Law
       Library employee allegedly used information from them in a publication
       written for the employee’s personal gain.

       Although we determined that no violation of Library regulations oc-
       curred as a result of the improper attribution, our investigation revealed
       that the Law Library employee had engaged in improper conduct by not
       clearly distinguishing in the publication between his private and public
       role as an author. The Law Library employee received a Memorandum
       of Admonishment.




Left: Decorative Metalwork Detail,
Photograph by Carol Highsmith
Follow-up on Investigative Issues
from Prior Semiannual Reports

Misuse of Travel Cards

As previously reported, our investigations of three Library employees sus-
pected of misusing their government travel cards to make unauthorized
cash withdrawals or purchases were referred to management.

In the first case, we determined that the employee knowingly used his
travel card to withdraw $1,303 from automated teller machines (ATMs)
for personal use. The employee was subsequently suspended for 10
days.

In the second case, an employee used two travel cards to make unauthor-
ized ATM withdrawals and purchases totaling $12,715. The subject’s
employment was terminated by Library management during this report-
ing period.

In the third case, a financial management specialist in the Travel Of-
fice, with a history of travel card abuse, made 16 unauthorized charges
totaling $2,794. The subject’s employment was terminated by Library
management during this reporting period.

After we initiated our investigations, all three employees reimbursed the
Library for their unauthorized charges.




                                                                 Semiannual Report to the Congress • 24
                   Other Activities
                   Inspector General Requests
                   Statutory Law Enforcement Authority

                   January 2010

                   In our last Semiannual Report to the Congress, we reported that the Li-
                   brarian had sent correspondence to House and Senate committees asking
                   for an amendment to our statute, the Library of Congress Inspector General
                   Act of 2005, to explicitly authorize the OIG to apply to the U.S. Attorney
                   General for law enforcement authority.

                   During this reporting period, in correspondence with the Chairman of
                   the Committee on House Administration, we explained that the lack of
                   explicit language authorizing OIG criminal investigators to obtain law
                   enforcement authority resulted in a disruption of OIG criminal investi-
                   gations for several months in 2009. Further, the missing language casts
                   doubt on our ability to maintain law enforcement authority in the future.
                   The proposed amendment to our statute is needed to ensure the continu-
                   ity and effectiveness of OIG investigations of collection thefts and other
                   crimes.

                   Inspectors general in agencies comparable to the Library of Congress
                   have for decades obtained their law enforcement authority through spe-
                   cial deputation from the U.S. Marshals Service or the U.S. Attorney
                   General because of an implicit responsibility to conduct criminal investi-
                   gations. The Inspector General Reform Act of 2008 made explicit executive
                   branch agencies’ authorization to obtain law enforcement authority, but
                   excluded the legislative branch agencies. Library investigators require
                   this authority as well because other law enforcement organizations lack
                   either the jurisdiction or ability to commit sufficient resources to meet
                   the Library’s investigative needs.

                   Peer Review of the Investigations Division

                   October 2009

                   In cooperation with the Council of the Inspectors General on Integrity
                   and Efficiency (CIGIE), our Investigations Division was peer reviewed
                   during the reporting period by the Peace Corps Office of the Inspector
                   General. Peer reviews are conducted every three years to ensure that the
                   policy and practices necessary to perform high-quality investigations are
                   in place.




25 • Semiannual Report to the Congress
 In its peer review report, the Peace Corps OIG opined that the Investi-
 gations Division system of internal safeguards and management proce-
 dures for investigations was in compliance with CIGIE quality stan-
 dards and U.S. Attorney General guidelines.

 OIG Reports Now Available Online

 October 2009

 In June 2008, the Chairman of the Committee on House Administra-
 tion expressed appreciation for OIG efforts in reviewing operations of
 the Library. At the same time, he requested copies of all OIG reports
 dating back to March 2001 and articulated his belief that the Library
 would benefit from wider dissemination of OIG findings. In response,
 we provided copies of reports, and began an effort to post those reports
 for public release on our Web site. This effort continued throughout the
 semiannual period.

 Selected digital postings of reports are now complete and available at
 www.loc.gov/about/oig.

 OIG Review of Integrated Support Services
 Draft Directive - Asset Management Tracking System

 December 2009

 At the request of ISS management, our office reviewed a draft of the
 ISS Logistics Asset Control Team’s directive for the Asset Management
 Tracking System. ISS designed the directive to improve internal control
 for property and equipment in response to a material weakness previ-
 ously reported as a result of the annual audit of the Library’s financial
 statements.

 During our review we identified and recommended several revisions and
 enhancements designed to improve the effectiveness of those controls.
 Our recommendations encompassed the entire fixed asset management
 process including receiving, movement, disposal, and subsidiary system
 accounting. Examples of our recommendations included enhancing pro-
 cedures for transferring assets between service units, documenting pro-
 cedures for receiving direct deliveries of assets at locations other than the
 central receiving site, and documenting the process for reconciling the
 subsidiary fixed asset management system to the general ledger.

 Management took our recommendations under advisement.



Both Images: From Rare Book Collection

                                                                 Semiannual Report to the Congress •26
Review of Legislation and Regulations

Table 3:                   Review of Library of Congress Regulations (LCRs)
        LCR Reviewed                                 Comments by the Office of The Inspector General
LCR 2015-14
                                   We offered no comment regarding this LCR.
Absence Without Official Leave

LCR 2015-21
                                   We offered no comment regarding this LCR.
Family and Medical Leave Act
                                   We continued working with this LCR, commenting that the regulation should rephrase key words to
LCR 211-6
                                   more fully describe its intent. We also commented that a section of this LCR notes incorrect references
Functions, Authority, and
                                   to another LCR (2023-9) on the same subject. We added that the regulation should delete language
Responsibility of the Inspector
                                   to clarify the authority in staffing the Inspector General’s Office and declined a suggestion to omit
General
                                   language regarding the notification of Library employees who are under OIG investigation.
LCR 2023-9
Rights and Responsibilities        We continued working with this LCR as well, commenting that the regulation should rephrase key
of Library Employees to the        words to more fully describe its intent.
Inspector General

LCR 2140
                                   We offered no comment regarding this LCR.
Miscellaneous Delegations

LCR 1220
                                   We offered no comment regarding this LCR.
Social Media Services	


LCR 315                            We commented that the regulation should be revised to include “experts” within groups evaluating
Evaluation of Library Material     materials valued over $10,000 and that these “experts” could include outside contractors.

LCR 316
                                   We commented that the regulation should include specific language pertaining to the timing of the
Acquisition of Materials
                                   reviews.
by Exchange
                                   We commented that the regulation should include procedures for tracking and documenting the
LCR 321-1
                                   movement of materials and establishing accountability over the collections. We also suggested that
Handling Collections
                                   language defining what is deemed “expensive” remain consistent throughout all LCRs. It was defined
on Approval
                                   in this regulation as “in excess of $1,000,” but other LCRs defined it as “in excess of $10,000.”

LCR 411-1                          We commented that the regulation add additional guidelines for determining what is “rare” under its
Priorities and Cataloging Levels   priorities and additional language to better define other key terms such as “major” and “substantial.”

LCR 414-1
                                   We suggested that the regulation require any violation be promptly reported to the OIG.
Marking of Library Materials
LCR 2101
                                   We commented on the authority of the OIG to sign interagency agreements.
Delegation to Sign Agreements
                                   We commented that language defining what is deemed “expensive” remain consistent throughout all
LCR 318-1
                                   Library LCRs. It was defined in this regulation as “in excess of $1,000,” but other LCRs defined it as
Acquisition by Purchase
                                   “in excess of $10,000.”




27 • Semiannual Report to the Congress
Table 3:                     Review of Library of Congress Regulations
        LCR Reviewed                                Comments by the Office of The Inspector General
LCR 2142
Revolving Fund                     We offered no comment regarding this LCR.
Customer Agreement
LCR 313
                                   We offered no comment regarding this LCR.
Statistics of Acquisitions
LCR 317-1
Acquisitions of                    We offered no comment regarding this LCR.
Collections by Gift
LCR 317-2
Acquisitions of                    We offered no comment regarding this LCR.
Collections by Deposit

LCR 318-1
Acquisitions of                    We offered no comment regarding this LCR.
Collections by Purchase

LCR 319
Recommending and                   We offered no comment regarding this LCR.
Selecting Collections Materials

LCR 515
Disposal of Surplus                We offered no comment regarding this LCR.
Collection Materials

LCR 611-5
Repair of Privately                We offered no comment regarding this LCR.
Owned Materials

LCR 1613
                                   We recommended that the regulation clearly state that any violation should be reported to the OIG.
Use of Library Motor Vehicles
LCR 1710                           We commented that this regulation more clearly define “electronic equipment supplied by the
Travel at the Expense              government.” We also commented that this would be a good opportunity to address talking on cell
of the Library                     phones while driving.
Human Resources
Directive on                       We offered no comment regarding this Directive.
Personnel Files




                                                                                Semiannual Report to the Congress •28
Unimplemented Recommendations
Table 4A: 	         Significant Recommendations from Previous Semiannual
                    Reports for Which Corrective Action Has Not Been Completed
          Subject           Report No. and        Office         Rec. No.             Summary and Status of Recommendation
                              Issue Date
 Office of the Chief Financial Officer (OCFO)
                                                                            Automate the interface for transmitting electronic payments–
 Disbursing Office          2007-PA-103        Disbursing                   OCFO research determined there is no system solution to
                                                                   II.d
 Controls                  September 2008        Office                     this issue, however, OCFO will pursue other means of file
                                                                            transmittal during FY 2010.
                                                                            Seek funding to ensure backup power is available at the
                                                                            alternate facility–The Library determined that a backup
 Disbursing Office          2007-PA-103        Disbursing
                                                                  IV-1      power source would be cost-prohibitive and continues to
 Controls                  September 2008        Office
                                                                            explore options for relocating the site to a facility which
                                                                            already has backup power.
 Integrated Support Services (ISS)
                                                                            Reevaluate three questionable surge allowances– ISS Logistics
 Requirements Analysis                         Integrated
                            2006-SP-802                                     is following up with a systemic survey of service/support unit
 for the Proposed Fort                          Support            III
                            March 2008                                      stakeholders for their input to predict future surge space
 Meade Logistics Center                         Services
                                                                            requirements at the warehouse, based on their needs.
                                                                            Recalculate the growth factor and consider leasing storage
                                                                            space on an as-needed basis to accommodate potential
 Requirements Analysis                         Integrated
                            2006-SP-802                                     growth in storage requirements–AOC awarded a contract
 for the Proposed Fort                          Support            IV
                            March 2008                                      to study and work with the Library to evaluate storage
 Meade Logistics Center                         Services
                                                                            requirements and solutions; completion targeted for FY
                                                                            2010.
                                                                            Implement an automated system that includes components
 Federal Employees’                                                         for tracking Federal Employees’ Compensation Act claims
                            2008-PA-102      Health Services
 Compensation Act                                                   II      and alerting ISS of upcoming reporting deadlines–System
                           September 2008        Office
 Program                                                                    has been procured and installation scheduled for summer
                                                                            2010.
 Federal Employees’                                                         Revise Library of Congress Regulation (LCR) 2018-5–
                            2008-PA-102      Health Services
 Compensation Act                                                  IV       The revised draft has been approved by the Librarian and
                           September 2008        Office
 Program                                                                    targeted for issuance during the summer of 2010.
                                                                            ISS management should undertake more initiatives to
                                                                            increase awareness among Library staff of the importance
 Energy Conservation        2009-PA-103
                                             Facility Services     II.c     of energy conservation and recycling programs–ISS is
 Efforts                      July 2009
                                                                            developing initiatives with a completion target of September
                                                                            2010.
 Copyright Office (CO)
                                                                            Reevaluate operating conditions and adjust the specialists’
                                                                            performance requirements accordingly–CO is conducting a
 Copyright Claims           2001-IT-304                                     major software/hardware upgrade of eCO to be completed
                                               Copyright           III
 Processing                September 2009                                   July 2010. The upgrade should improve performance along
                                                                            with efficiencies derived from eService filings. Performance
                                                                            metrics will be reevaluated after measuring these results.
 Library Services (LS)
                                                                            Develop a decision model for determining reading room
                                                                            space requirements–LS has developed an electronic decision
 Utilization of             2003-PA-104
                                             Library Services      II.1     model for determining current and future research center
 Reading Rooms              March 2004
                                                                            space requirements, with implementation planned for FY
                                                                            2010.



  29 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
              	 Reports for Which Corrective Action Has Not Been Completed
         Subject          Report No. and       Office         Rec. No.             Summary and Status of Recommendation
                            Issue Date
                                                                         Use the decision model to make decisions about reading
                                                                         room, office space, and storage requirements–The decision
Utilization of             2003-PA-104                                   model will be implemented in FY 2011. LS will relocate
                                           Library Services     II.2
Reading Rooms              March 2004                                    the Motion Picture and Television Reading Room adjacent
                                                                         to the Performing Arts Reading Room in the coming
                                                                         months.
                                                                         Establish criteria for specifically defining Top Treasure
                                                                         collection items and clearly define a process to nominate/
Top Treasures Security                                                   transfer collection items to the Top Treasure category–The
                           2008-PA-103
and Preservation                           Library Services     I.a      Associate Librarian for Library Services is reviewing a draft
                           January 2009
Controls                                                                 policy approved by the Collections and Services Division;
                                                                         if acceptable, to be submitted to the General Counsel by
                                                                         June 15, 2010.
                                                                         Reevaluate the position designations of staff members with
                                                                         authorized vault access who occupy non-sensitive positions
Top Treasures Security                                                   and revise LCRs dealing with sensitivity designations for
                           2008-PA-103
and Preservation                           Library Services     I.c      positions with access to priceless collection items–The
                           January 2009
Controls                                                                 Conservation Division and the Office of Personnel Security
                                                                         are discussing the ramifications of implementing this
                                                                         recommendation.
                                                                         Develop and implement an automated system to track
                                                                         and account for new acquisitions and establish adequate
Rare Book and Special      2008-PA-101
                                           Library Services     I.a      segregation of duties–LS has not progressed beyond
Collections Security       March 2009
                                                                         discussing requirements with Rare Book and Special
                                                                         Collections (RBSC) for an automated tracking system.
                                                                         Develop and document new policies and procedures for
                                                                         authorizing, tracking, and reviewing collection material
Rare Book and Special      2008-PA-101                                   on loan–LS management is in the process of updating the
                                           Library Services     I.c
Collections Security       March 2009                                    manual files for materials on loan and revising procedures.
                                                                         LS has not progressed beyond discussing requirements with
                                                                         RBSC for an automated tracking system.
                                                                         Develop and document procedures for outgoing mail to
                                                                         prevent unauthorized removal of collection items–The
Rare Book and Special      2008-PA-101
                                           Library Services     I.d      RBSC chief has drafted new procedures in an update of
Collections Security       March 2009
                                                                         the RBSC policy and procedures manual to be completed
                                                                         Spring 2010.
                                                                         Reevaluate background investigation procedures for Rare
                                                                         Book management and periodically update background
                                                                         investigations–The Executive Committee (EC) is
                                                                         considering changes to LCR 2024-2 Position Sensitivity
Rare Book and Special      2008-PA-101
                                           Library Services     I.f      Designations made by the Office of Security and
Collections Security       March 2009
                                                                         Emergency Preparedness (OSEP) consistent with this
                                                                         recommendation. Once the federal community obtains a
                                                                         consensus on re-investigations for public trust positions,
                                                                         OSEP will submit further revisions to the EC.
Office of the Librarian
                                                                         Coordinate with OCFO to identify opportunities for
                                                                         modifying/improving Momentum–Office of Contracts and
Office of Contracts–
                           2007-PA-102        Office of                  Grants Management (OCGM) is working with OCFO and
Service Remains Less                                            IV
                          September 2007      Contracts                  ITS to develop in Momentum acquisition planning data
Than Satisfactory
                                                                         for tracking procurements from initiation to award. Target
                                                                         implementation is FY 2011.

                                                                              Semiannual Report to the Congress • 30
Unimplemented Recommendations

Table 4A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
         Subject           Report No. and      Office        Rec. No.              Summary and Status of Recommendation
                             Issue Date
Office of the Librarian Continued
                                                                         Lack of compliance with certain Federal Acquisition
                                                                         Regulation requirements–OCGM continues to work with
Lack of Compliance                                            Non-       the Office of the General Counsel (OGC), OCFO, and the
                            2008-SP-101      Office of
with Library Contracting                                    Compliance   service/support units to develop sound procurement policies
                            March 2008       Contracts
Policy is Widespread                                        Reason IV    and procedures. It coordinated and posted to its Intranet
                                                                         Web site Library-wide guidance on interagency agreements
                                                                         with other topics to follow.
                                                                         The Development Office (DO) should: document its
                                                                         access control policy, and revise password access to comply
Raiser’s Edge Software      2006-IT-302     Development                  with IT Security Directive 02–The DO has documented
                                                                I
Program                    December 2007       Office                    its access control policy and password updates have been
                                                                         successfully tested. The DO is awaiting ITS scheduling for
                                                                         final installation.

                                                                         The DO Director should ensure that the Raiser’s Edge
Raiser’s Edge Software      2006-IT-302     Development
                                                                II       system undergoes Certification and Accreditation (C&A)–
Program                    December 2007       Office
                                                                         ITS and the DO are currently conducting the C&A.

                                                                         System managers for Raiser’s Edge should regularly review
                                                                         the system’s transaction logs for suspect data events–System
Raiser’s Edge Software      2006-IT-302     Development
                                                               III       upgrades required to facilitate this recommendation
Program                    December 2007       Office
                                                                         have been tested and approved. The DO is awaiting ITS
                                                                         scheduling for final installation.

                                              Office of                  Revise LCR 2020-7 to allow complainants to use dispute
                                            Opportunity,                 resolution during the formal complaint process–The Director
Dispute Resolution          2002-PA-104
                                            Inclusiveness      III       of Opportunity, Inclusiveness and Compliance (OIC) is
Center                     September 2003
                                                 and                     drafting a new LCR with a target date of first quarter FY
                                            Compliance                   2011 for issuance.
                                              Office of
Equal Employment                            Opportunity,                 Evaluate and revise LCR 2010-3.1–The Director of OIC is
                           2001-PA-104
Opportunity Complaints                      Inclusiveness       I        drafting a new LCR with a target date of first quarter FY
                           February 2003
Office                                           and                     2011 for issuance.
                                            Compliance
                                                                         The Library should assess its diversity program annually
                                              Office of                  using the EEOC’s MD-715 criteria and develop a plan
                                            Opportunity,                 to achieve essential elements in the model–OIC is in the
Diversity Management        2008-SP-104
                                            Inclusiveness      II.1      process of hiring staff to perform this function, purchasing
Program                      July 2008
                                                 and                     statistical analysis software, and acquiring access to the
                                            Compliance                   National Finance Center (NFC) data. Will implement by
                                                                         the end of FY 2010.
                                                                         The Library should develop a tracking system that will notify
                                              Office of                  the OIC when an employee is promoted to a supervisor
                                            Opportunity,                 and then disseminate the EEO policy statement to newly
Diversity Management        2008-SP-104
                                            Inclusiveness      II.3      appointed supervisors on an ongoing basis–OIC has
Program                      July 2008
                                                 and                     partnered with ITS and has developed an interim tracking
                                            Compliance                   system. OIC plans to have all the changes to the system
                                                                         completed by the end of FY 2010.


31 • Semiannual Report to the Congress
Table 4A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
         Subject           Report No. and      Office       Rec. No.             Summary and Status of Recommendation
                             Issue Date
                                              Office of                Track promotions and performance evaluations to
                                            Opportunity,               determine whether there is consistency among groups–
Diversity Management       2008-SP-104
                                            Inclusiveness     II.5     OIC has partnered with ITS and has developed an interim
Program                     July 2008
                                                 and                   tracking system. OIC plans to have all the changes to the
                                            Compliance                 system completed by the end of FY 2010.
                                                                       Develop a means to conduct an in-depth analysis of
                                                                       separations to identify trends that will assist management
                                              Office of
                                                                       in determining reasons behind the separation rates of
                                            Opportunity,
Diversity Management       2008-SP-104                                 minorities and females–OIC is in the process of hiring staff
                                            Inclusiveness     II.6
Program                     July 2008                                  to perform this function, purchasing statistical analysis
                                                 and
                                                                       software, and acquiring access to the NFC data. OIC plans
                                            Compliance
                                                                       to fully implement this recommendation by the end of
                                                                       FY 2010.
                                                                       Organize a facilitative workshop with program supervisors,
                                              Office of                HRS, and OIC staff to discuss identified barriers–
                                            Opportunity,               Contingent on fully implementing recommendation
Diversity Management       2008-SP-104
                                            Inclusiveness     II.7     II.1, OIC will make presentations to the EC, Operations
Program                     July 2008
                                                 and                   Committee, managers, and supervisors on the results of the
                                            Compliance                 diversity assessments, including analysis of the workforce,
                                                                       job groups, availability, utilization, impact, and barriers.
                                              Office of                Convene a Hispanic employment work group to develop
                                            Opportunity,               strategies to improve Hispanic representation–OIC is in
Diversity Management       2008-SP-104
                                            Inclusiveness     II.8     the process of hiring staff to perform this function and
Program                     July 2008
                                                 and                   plans to fully implement this recommendation by the end
                                            Compliance                 of FY 2010.
                                              Office of                Conduct exit interviews to determine why staff leave
                                            Opportunity,               and identify employee perceptions about organizational
Diversity Management       2008-SP-104
                                            Inclusiveness     II.9     commitment to diversity–OIC is scheduling meetings
Program                     July 2008
                                                 and                   with HRS to discuss how best to implement this
                                            Compliance                 recommendation.
                                                                       Identify critical senior level and management positions
                                              Office of                and focus training, career development, and mentoring
                                            Opportunity,               programs–The Library is designing a senior level
Diversity Management       2008-SP-104
                                            Inclusiveness     III      development program as one of the components of its
Program                     July 2008
                                                 and                   succession management plan. HRS also plans to work with
                                            Compliance                 the OIC Director on other relevant training, development,
                                                                       and/or mentoring initiatives.
                                                                       The Library should make its “No Fear” data available to staff
                                              Office of                via the Library’s Staff Intranet Web site and benchmark this
                                            Opportunity,               data against other federal agencies of similar size–OIC is in
Diversity Management       2008-SP-104
                                            Inclusiveness     IV       the process of hiring additional staff who will be responsible
Program                     July 2008
                                                 and                   for updating the OIC Intranet including adding “No Fear”
                                            Compliance                 data. OIC plans to implement this recommendation by
                                                                       December 2010.
                                             Office of        II.c     Develop and implement a policy that specifically addresses
                                             the Chief                 worksite files, supervisory notes, and ghost files for non-
Personally Identifiable    2008-PA-104
                                             Operating                 bargaining unit employees–HRS has drafted a Directive
Information               September 2009
                                              Officer                  to accomplish this and has submitted it to the General
                                                                       Counsel for approval.

                                                                           Semiannual Report to the Congress • 32
Unimplemented Recommendations
Table 4A:       Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
            Subject               Report No. and             Office    Rec. No.              Summary and Status of Recommendation
                                    Issue Date
 Office of Strategic Initiatives (OSI)
                                                                                  Produce a transformational guide that contains a plan of
                                                         Information              execution to ensure that the Library moves forward as a
 Information Technology            2008-PA-105
                                                         Technology     1.D       total institution with one voice–This will be accomplished
 Strategic Planning                March 2009
                                                           Services               through the Enterprise Architecture (EA) effort currently
                                                                                  in process.
                                                                                  Separate the IT function from OSI and have the Chief
                                                         Information              Information Officer (CIO) report directly to the Librarian
 Information Technology            2008-PA-105
                                                         Technology      3.A      or Chief Operating Officer–Library management is
 Strategic Planning                March 2009
                                                           Services               still considering this recommendation in light of new
                                                                                  governance processes.
                                                         Information              Implement a commercial-off-the-shelf help desk system
 Information Technology            2008-PA-105
                                                         Technology     5.D       that includes metrics–ITS will address this when both
 Strategic Planning                March 2009
                                                           Services               human and capital resources are available.
                                                                                  Negotiate a new help desk contract to meet service level
                                                         Information              requirements of all service/support units and eliminate
 Information Technology            2008-PA-105
                                                         Technology      5.E      duplicative services–The Library disagreed with this
 Strategic Planning                March 2009
                                                           Services               recommendation (duplicative costs were addressed in
                                                                                  Implemented Recommendation number 2.B).
                                                                                  Develop dynamic, evolving metrics to measure performance–
                                                         Information
 Information Technology            2008-PA-105                                    ITS has reviewed and revised metrics for several help desk
                                                         Technology      5.F
 Strategic Planning                March 2009                                     functions, is expanding its analysis, and investigating the benefits
                                                           Services
                                                                                  of dashboards for monitoring performance.
                                                                                  ITS should conduct a comprehensive needs assessment
                                                         Information              of the hardware, software, and equipment and ensure an
 Alternate Computing              2009-IT-101
                                                         Technology     I.a.1     adequate infrastructure is in place to mirror and recover the
 Facility                        September 2009
                                                           Services               Library’s critical systems–ITS is developing procedural steps
                                                                                  to address this recommendation.
                                                                                  ITS should ensure the Library’s critical systems are fully
                                                         Information
 Alternate Computing              2009-IT-101                                     mirrored at the Alternate Computing Facility (ACF)–ITS
                                                         Technology     I.a.2
 Facility                        September 2009                                   has identified gaps between critical systems and ACF backup.
                                                           Services
                                                                                  Mirroring those systems is the next step.
                                                                                  Ensure that the availability and functionality of the Library’s
                                                         Information              critical systems at the ACF are periodically tested, documented,
 Alternate Computing              2009-IT-101
                                                         Technology     I.b.1     and reviewed-–ITS is in the process of developing testing
 Facility                        September 2009
                                                           Services               plans along with service unit agreements for contingency
                                                                                  situations.
                                                                                  Develop and implement procedures to periodically test the
                                                         Information
 Alternate Computing              2009-IT-101                                     backup media, such as backup tapes, at the ACF–Standard
                                                         Technology     I.b.2
 Facility                        September 2009                                   operating procedures for testing backup media are being
                                                           Services
                                                                                  drafted.
                                                                                  Conduct a comprehensive evaluation of remote access and
                                                         Information              connectivity to the ACF–ITS completed a comprehensive
 Alternate Computing              2009-IT-101
                                                         Technology     I.c.1     evaluation that revealed the current ACF connectivity could not
 Facility                        September 2009
                                                           Services               accommodate the 4,000 identified users. Funding is required to
                                                                                  provide full connectivity.


Opposite: Ornamentation and Lighting. West Exterior Foyer,
Photograph by Tara Logan

                                                                                      Semiannual Report to the Congress • 34
Unimplemented Recommendations
Table 4A: 	          Significant Recommendations from Previous Semiannual
                     Reports for Which Corrective Action Has Not Been Completed
           Subject                Report No. and       Office        Rec. No.            Summary and Status of Recommendation
                                    Issue Date
Office of Strategic Initiatives (OSI) Continued
                                                                                Coordinate with the Library’s service units and divisions
                                                    Information                 to develop and conduct tests to verify that users can
Alternate Computing                2009-IT-101
                                                    Technology        I.c.2     directly access and use the systems and data at the ACF
Facility                          September 2009
                                                      Services                  from remote locations–ITS has developed a methodology
                                                                                for testing outside access on a “rolling basis.”
                                                    Information                 Identify and classify the Library’s mission essential
Alternate Computing                2009-IT-101
                                                    Technology         II.1     functions and critical systems–ITS has drafted
Facility                          September 2009
                                                      Services                  recommendations for presentation to the EC.
                                                                                Establish procedures to ensure that the list of systems,
                                                    Information                 classified by tier level, is complete and kept up-to-date–
Alternate Computing                2009-IT-101
                                                    Technology         II.2     Based on the EC response to the presentation in II.1
Facility                          September 2009
                                                      Services                  above, ITS will submit a standard operating procedure
                                                                                for EC approval.
                                                                                Ensure written agreements with service units are
                                                    Information                 standardized and current–ITS is redrafting service
Alternate Computing                2009-IT-101
                                                    Technology         III      level memorandums of understanding (MOUs) for
Facility                          September 2009
                                                      Services                  service units that will include standardized contingency
                                                                                services.
Human Resources Services (HRS)
                                                                                Establish procedures for the point of contacts (POC) to
                                   2009-PA-101        Worklife                  make leave bank (LB) adjustments in WebTA–HRS is
Worklife Services Center                                              I.a.1
                                    June 2009      Services Center              in the process of developing written procedures for the
                                                                                POCs and timekeepers.
                                                                                Provide training and written procedures for timekeepers
                                   2009-PA-101        Worklife
Worklife Services Center                                              I.c.1     on leave discrepancies–Training has been developed and
                                    June 2009      Services Center
                                                                                scheduled for April 2010.




Above: Metalwork Ornamentation,
Photograph by Tara Logan

 35 • Semiannual Report to the Congress
Implemented Recommendations
Table 4B: 	         Significant Recommendations from Previous Semiannual Reports
                    for Which Corrective Action Was Completed During This Period
          Subject           Report No. and      Office      Rec. No.             Summary and Status of Recommendation
                              Issue Date
 Office of the Chief Financial Officer (OCFO)
 Disbursing Office           2007-PA-103     Disbursing                Revise Financial Services Directive 05-02–Directive was revised
                                                              II.a
 Controls                   September 2008     Office                  and issued December 2009.
 Integrated Support Services (ISS)
 Landover Center Annex                        Integrated               Develop an inventory retention policy–ISS has developed
                             2009-PA-102
 Warehouse Inventory                           Support         II      and communicated the policy to service/support units and
                             March 2009
 Controls                                      Services                ISS Logistics is implementing the policy at the warehouse.
 Copyright Office (CO)
                                                                       Determine the staffing level needed to process incoming
                                                                       claims and eliminate the backlog–Since reengineering
 Conditions in the
                                                                       implementation in August 2007 the number of registration
 Processing of Copyright    September 2008    Copyright       III
                                                                       specialists in CO has grown by nearly 20 percent. As CO’s
 Claims
                                                                       business model changes it continues to shift resources to
                                                                       address incoming claims and the backlog.
 Library Services (LS)
                                                                       Library management should work with U.S. Capitol Police
                                                                       (USCP) to identify areas where the collections require
 Rare Book and Special       2008-PA-101        Library                special coverage–Library management has established
                                                               II
 Collections Security        March 2009         Services               an emergency water response team to work with USCP
                                                                       including special procedures for USCP inspections of
                                                                       collections during inclement weather.
 Office of Security and Emergency Preparedness (OSEP)
                                               Office of
                                                                       Develop or obtain a threat/risk assessment–Library
 Emergency Preparedness      2005-PA-104     Security and
                                                              III      management now relies on the USCP to conduct threat/
 Program                     March 2006       Emergency
                                                                       risk assessments of the Library.
                                             Preparedness
 Office of the Librarian
                                              Office of
                                                                       The Library should designate a Chief Privacy Officer
 Personally Identifiable     2008-PA-104      the Chief
                                                               I       (CPO)–LCR 1921 issued October 2009 designated the
 Information                September 2009    Operating
                                                                       Library’s General Counsel as the CPO.
                                               Officer
                                              Office of                The CPO should be assigned overall responsibility for
 Personally Identifiable     2008-PA-104      the Chief                managing protection of personally identifiable information
                                                              II.a
 Information                September 2009    Operating                (PII) including the Library’s manual systems and files–
                                               Officer                 Accomplished with issuance of LCR 1921 in October 2009.
                                              Office of
 Personally Identifiable     2008-PA-104      the Chief                Identify PII in legacy systems and conduct privacy impact
                                                              II.b
 Information                September 2009    Operating                assessments–ITS is assisting the CPO in completing this.
                                               Officer
                                              Office of
                                                                       Develop policy that requires PII incidents to be reported
 Personally Identifiable     2008-PA-104      the Chief
                                                              III      to the OIG–Accomplished with issuance of LCR 1921 in
 Information                September 2009    Operating
                                                                       October 2009.
                                               Officer




                                                                            Semiannual Report to the Congress •36
Implemented Recommendations
Table 4B: 	           Significant Recommendations from Previous Semiannual Reports
                      for Which Corrective Action Was Completed During This Period
            Subject                  Report No. and             Office    Rec. No.             Summary and Status of Recommendation
                                       Issue Date
  Office of Strategic Initiatives (OSI)
                                                                                     Compare the cost of alternative service providers to find the
                                                                                     best value to the Library–ITS conducted a comparison and
                                                            Information
 Long-Distance Telephone             2007-CA-101                                     determined that the current rate package has the optimum
                                                            Technology       I
 Service                              March 2008                                     rate mix for domestic/international long distance service
                                                              Services
                                                                                     when factoring-in installation charges associated with
                                                                                     changing carriers.
                                                                                     Create a process to ensure that the IT strategic plan aligns
                                                            Information              directly with the Library’s strategic plan–The Librarian’s
 Information Technology              2008-PA-105
                                                            Technology      1.A      Management Agenda, issued July 2009, initiated a process
 Strategic Planning                  March 2009
                                                              Services               for Library-wide involvement (including addressing IT
                                                                                     requirements) in updating the Library’s strategic plan.
                                                                                     Involve line employees in the Library’s strategic planning
                                                            Information              process–The Library involved managers and staff in the update
 Information Technology              2008-PA-105
                                                            Technology      1.B      of the strategic plan. A total of 73 people (46 managers, 25
 Strategic Planning                  March 2009
                                                              Services               senior analysts/staff, and 2 Career Development Program
                                                                                     graduates) participated in drafting the next strategic plan.
                                                                                     Ensure that all initiatives concerning future Library
                                                                                     technology are shared Library-wide–This is a principal
                                                            Information
 Information Technology              2008-PA-105                                     objective of the updated strategic plan and will be ensured
                                                            Technology      1.C
 Strategic Planning                  March 2009                                      through the new IT Governance Process, IT Investment
                                                              Services
                                                                                     Management Process, collaborative informational meetings,
                                                                                     and through the Library Gazette.
                                                                                     Form a cohesive, integrated, and centrally managed Digital
                                                            Information              Strategy Plan (DSP) with roles and responsibilities of
 Information Technology              2008-PA-105
                                                            Technology      1.E      relevant service/support units clearly defined–The Library’s
 Strategic Planning                  March 2009
                                                              Services               revised strategic plan includes the DSP and will integrate it
                                                                                     under the performance management system.
                                                                                     Inventory and prioritize existing systems that require
                                                            Information              upgrade and new IT projects to create an IT portfolio–
 Information Technology              2008-PA-105
                                                            Technology      2.A      ITS has an inventory of all existing systems and on-going
 Strategic Planning                  March 2009
                                                              Services               projects with priorities addressed by the IT Steering
                                                                                     Committee.
                                                                                     Develop a plan to review and eliminate duplicative costs
                                                            Information              including help desks, technical liaisons in service units, and
 Information Technology              2008-PA-105
                                                            Technology      2.B      coordinate purchases–A methodology has been developed
 Strategic Planning                  March 2009
                                                              Services               and the Budget Office and ITS are analyzing for duplicative
                                                                                     costs.
                                                            Information              Account for all IT costs including computer security as part of
 Information Technology              2008-PA-105
                                                            Technology      2.C      the IT budgetary process–A methodology has been developed
 Strategic Planning                  March 2009
                                                              Services               as recommended.
                                                            Information              Develop a methodology to maintain and track all
 Information Technology              2008-PA-105
                                                            Technology      2.E      IT expenses–A methodology has been developed as
 Strategic Planning                  March 2009
                                                              Services               recommended.
                                                                                     Review and plan for moving forward through the stages of
                                                            Information
 Information Technology              2008-PA-105                                     the Information Technology Infrastructure Management
                                                            Technology      2.F
 Strategic Planning                  March 2009                                      Model–The EC has selected and implemented an IT
                                                              Services
                                                                                     governance model.


Opposite: Detail of inlaid Caduceus, Associated with the Science of
Medicine. West Exterior Foyer,
Photograph By Tara Logan                                                                  Semiannual Report to the Congress •38
Implemented Recommendations
Table 4B: 	       Significant Recommendations from Previous Semiannual Reports
                  for Which Corrective Action Was Completed During This Period
        Subject           Report No. and          Office   Rec. No.             Summary and Status of Recommendation
                            Issue Date
Office of Strategic Initiatives (OSI) Continued
                                                                      Endow the CIO with authority and responsibility for IT
                                                                      strategic planning, capital planning, asset management,
                                            Information
Information Technology     2008-PA-105                                enterprise architecture, and establish a Customer Advocate
                                            Technology       3.B
Strategic Planning         March 2009                                 role to ensure accountability–The CIO now has the
                                              Services
                                                                      recommended authorities and responsibilities; the Library
                                                                      believes the Customer Advocate is unnecessary at this time.
                                                                      Endow organizational functions such as IT security
                                            Information               with appropriate enforcement authority and policy
Information Technology     2008-PA-105
                                            Technology       3.C      responsibilities–The IT Security Staff operate with the
Strategic Planning         March 2009
                                              Services                recommended authorities through the Director of ITS and
                                                                      the CIO.
                                                                      Follow Federal Segment Architecture Management (FSAM)
                                                                      templates as a model for developing the architecture segments
                                            Information
Information Technology     2008-PA-105                                and use federal agency best practices for enterprise architecture
                                            Technology       4.A
Strategic Planning         March 2009                                 (EA) using mainstream tools and processes–The EA program
                                              Services
                                                                      will use FSAM and the associated templates to develop
                                                                      architecture segments.
                                                                      Evaluate proposed plans for the development of an EA
                                            Information               with the Enterprise Architecture Management Maturity
Information Technology     2008-PA-105
                                            Technology       4.B      Framework (EAMMF) to ensure the plans are in
Strategic Planning         March 2009
                                              Services                complete alignment–The Library is using the EAMMF as
                                                                      recommended.
                                                                      Keep the process for developing an EA in line with similar
                                                                      agencies to avoid a process that is too complex or out
                                            Information               of scope with agencies of similar size–The Library’s EA
Information Technology     2008-PA-105
                                            Technology       4.C      development processes have been modeled for simplicity
Strategic Planning         March 2009
                                              Services                after the National Institutes of Health, Government
                                                                      Accountability Office, and Government Printing Office
                                                                      using FSAM as recommended.
                                                                      Include all EA costs in a single budget line item for the entire
                                            Information               Library to avoid a burdensome or costly process for system
Information Technology     2008-PA-105
                                            Technology      4.D       owners–The OSI budget funds EA contract costs and the
Strategic Planning         March 2009
                                              Services                program office. Individual service units will fund the human
                                                                      resource costs of participating on domain teams.
                                                                      Involve all service/support unit system/business process
                                                                      owners in implementing EA–The EC named an
                                            Information
Information Technology     2008-PA-105                                Architecture Review Board comprised of support unit
                                            Technology       4.E
Strategic Planning         March 2009                                 representatives and Architecture Domain Teams (with
                                              Services
                                                                      subject matter experts from service/support units) to
                                                                      achieve Library-wide participation in EA.
                                                                      Implement service level agreements to manage customer
                                            Information
Information Technology     2008-PA-105                                expectations–ITS developed a Master Service Level
                                            Technology       5.A
Strategic Planning         March 2009                                 Agreement to be used as a template for MOUs with each
                                              Services
                                                                      service unit.
                                                                      Review the performance metrics, system development life
                                                                      cycle, IT security, and help desk processes and obtain feedback
                                            Information               to improve efficiency and effectiveness–Reviews have been
Information Technology     2008-PA-105
                                            Technology       5.B      completed and through the Workstation Configuration
Strategic Planning         March 2009
                                              Services                Control Committee, the IT Collaborative Forum, and ad
                                                                      hoc meetings with service units, ITS has created formats for
                                                                      continuous feedback to initiate improvements.
 39 • Semiannual Report to the Congress
Table 4B: 	         Significant Recommendations from Previous Semiannual Reports
                    for Which Corrective Action Was Completed During This Period
          Subject           Report No. and     Office      Rec. No.             Summary and Status of Recommendation
                              Issue Date
                                                                      Use best practices for service management from organizations
                                             Information              such as the Help Desk Institute, Information Technology
 Information Technology      2008-PA-105
                                             Technology      5.C      Infrastructure Library (ITIL), and other organizations– ITS
 Strategic Planning          March 2009
                                               Services               reviewed ITIL guidance and developed a plan for identifying
                                                                      and implementing best practices for the help desk.
 Human Resources Services (HRS)
                                                                      Review WebTA accounts of leave bank (LB) recipients to
                                              Worklife                ensure awards have been properly applied, used for the
                             2009-PA-101
 Worklife Services Center                     Services      I.a.2     purposes intended, and unused balances recovered–HRS
                              June 2009
                                              Center                  standard operating procedures (SOPs) now require review
                                                                      of WebTA accounts of LB recipients as recommended.

                                                                      Revise program procedures to require email notifications
                                                                      to applicants, timekeepers, and corresponding POCs
                                              Worklife
                             2009-PA-101                              regarding award decisions; require notification confirmation
 Worklife Services Center                     Services      I.a.3
                              June 2009                               by timekeepers and corresponding POCs–Notifications
                                              Center
                                                                      now sent as recommended. HRS SOPs were revised to
                                                                      comply with recommendation.
                                              Worklife                Establish LB procedures for timekeepers–HRS SOPs now
                             2009-PA-101
 Worklife Services Center                     Services       I.b      require review of WebTA accounts of LB recipients as
                              June 2009
                                              Center                  recommended.
                                                                      Periodically monitor leave error reports for timely
                                              Worklife
                             2009-PA-101                              error resolution–HRS implemented SOPs for biweekly
 Worklife Services Center                     Services      I.c.2
                              June 2009                               monitoring of leave error reports and correction
                                              Center
                                                                      procedures.
                                                                      Restrict master timekeepers’ access rights to confidential
                                              Worklife
                             2009-PA-101                              pay and leave information–HRS has implemented an
 Worklife Services Center                     Services       II.a
                              June 2009                               alternative solution to reduce the exposure by reducing the
                                              Center
                                                                      master timekeeper role to only essential personnel.
                                              Worklife                Evaluate staff access rights to key HRS IT systems–HRS
                             2009-PA-101
 Worklife Services Center                     Services      II.b.1    has reviewed all access rights to ensure that access is in
                              June 2009
                                              Center                  accordance with business and operational needs.
                                              Worklife                Require the Worklife Services Center to review the audit
                             2009-PA-101
 Worklife Services Center                     Services      II.b.2    trail of leave update reports to identify invalid transactions-
                              June 2009
                                              Center                  HRS has implemented the review as recommended.
                                                                      Establish a policy for personnel actions processed through
                                              Worklife                EmpowHR–All but the most sensitive actions are now
                             2009-PA-101
 Worklife Services Center                     Services      II.c.1    processed through EmpowHR work-in-progress. Actions
                              June 2009
                                              Center                  processed outside of this method are reviewed by at least one
                                                                      level of authority higher than the person processing the action.
                                                                      Review transactions initiated and processed outside the
                                              Worklife                EmpowHR work-in-progess process resulting in a change
                             2009-PA-101
 Worklife Services Center                     Services      II.c.2    in pay or disbursement of funds–Actions processed outside
                              June 2009
                                              Center                  of EmpowHR are reviewed by at least one level of authority
                                                                      higher than the person processing the action.
                                                                      Revise the employees’ performance plans and hold employees
                                                                      accountable for their work–HRS has implemented this
                                              Worklife
                             2009-PA-101                              recommendation by revising the performance plans to
 Worklife Services Center                     Services       III
                              June 2009                               include understandable and measurable terms that provide
                                              Center
                                                                      sufficient detail to hold employees accountable for their
                                                                      work.
                                                                           Semiannual Report to the Congress •40
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.


Significant Management Decisions
With Which OIG Disagrees

During the reporting period there were no significant disagreements with Library management about decisions
on OIG recommendations.


Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual period.
Management’s comments on the status of individual recommendations appear in table 4A. Recommenda-
tions management asserts it has implemented during the period appear in table 4B. In order to confirm that
recommendations have been implemented as reported, we perform periodic follow-ups of selected projects.




Left: Marble and Metalwork Stairs,
Photograph By Carol Highsmith


                                                                 Semiannual Report to the Congress • 42
  Funds Questioned or Put to Better Use
  Table 5:	       Audits with Recommendations for Better Use of Funds
  Reports…                                                           Number                  Value
  …for which no management decision was made by the start of the
                                                                       -                        -
  period:

  …issued during the period:                                           -                        -
                                                          Subtotal     -                        -
  …for which a management decision was made during the reporting
  period:
                                                                       -                        -
          value of recommendations agreed to by management
                                                                       -                        -
          value of recommendations not agreed to by management

  …for which no management decision was made by the end of the
                                                                       -                        -
  reporting period:

  …for which no management decision was made within six months of
                                                                       -                        -
  issuance:

  Table 6:	       Audits with Questioned Costs
  Reports…                                                           Number                  Value
  …for which no management decision was made by the start of the
                                                                       -                        -
  period:
  …issued during the period:                                           -                        -
                                                          Subtotal     -                        -
  …for which a management decision was made during the reporting
  period:
                                                                       -                        -
             value of recommendations agreed to by management
                                                                       -                        -
             value of recommendations not agreed to by management

  …for which no management decision was made by the end of the
                                                                       -                        -
  reporting period:
  …for which no management decision was made within six months
  of issuance:                                                         -                        -




                                                                           Right: Stone Book Scroll, Exterior,
                                                                              Photograph By Carol Highsmith


43 • Semiannual Report to the Congress
       Organizational Chart


                                                                      Inspector General
                                                                      Karl W. Schornagel
                        Counsel to the IG                             CPA                                         Administrative officer
                       Judith K. Leader, Esq.                                                                     Sheetal Gupta




                     Assistant Inspector                                                                       Assistant Inspector
                     General for Audits                                                                        General for Investigations
                     Nicholas G. Christopher, Esq., CPA                                                        Kenneth R. Keeler




Lead Auditor                                    Senior Lead Auditor                        Special Agent                           Special Agent
John R. Mech                                    Patrick J. Cunningham                      Pamela D. Hawe                          Kimberly J. Taylor
CPA                                             CIA                                        (Part-time)                             (Part-time)




Auditor                                         IT Auditor                                 Special Agent                           Investigator
Cornelia E. Jones                               Jessica A. Tucker                          Hugh D. Coughlin                        Barbara A. Hennix
                                                CISA



Auditor                                         IT Specialist                              Management                              Investigator
Elizabeth Valentin                              Lawrence D. Olmsted                        Analyst                                 Lynnea A. Schurkamp
CPA                                                                                        Michael R. Peters




Auditor
Walter E. Obando
CIA



Management
Analyst
Peter J. TerVeer



Management
Analyst
Jennifer R. Dunbar



Management
Analyst
Sarah E. Sullivan




                                                                                                                                     Above: Exterior Metal Plaque,
                                                                                                                                     Photograph by Tara Logan


 45 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

         Complaints May be Made Anonymously




                   Inspector General
                  Library of Congress
             101 Independence Avenue, S.E.
                        LM-630

              Washington, DC 20540-1060




     Main Telephone Number:      (202) 707-6314

                Fax Number:      (202) 707-6032

  Hotline Telephone Number:      (202) 707-6306

             Hotline Email:      oighotline@loc.gov

                   P.O. Box:     15051 S.E. Station
                                 Washington, DC 20003-9997


  Any information you provide will be held in confidence.
However, providing your name and a means of communicating
     with you may enhance our ability to investigate.
